           Office Of Inspector General




November 19, 2003

KEITH STRANGE
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT: Management Advisory – Contracting Authority
         (Report Number CA-MA-04-001)

This report presents the results of the survey phase of our self-initiated review of
Contracting Authority within the Postal Service (Project Number 02XG008CA000). This
project was originally titled Unauthorized Contractual Commitments, but was modified to
more accurately reflect the scope of our review.

                                         Background
Contracting officers have the authority to enter into, administer, and terminate contracts
for the Postal Service. Contracting officers are appointed by the vice president, Supply
Management, and by individuals delegated that authority by the vice president.
Appointees to the position of contracting officer must be career employees in good
standing, and must meet the qualifications for their particular appointment level.
Appointment is made by letter and on Postal Service Form 7378, Certificate of
Appointment.

There are four general levels of contracting officer:

Level I contracting officers:
   •   Generally delegated up to $100,000 of contracting authority.
   •   Requires 1 year of experience performing substantive purchasing tasks.
   •   Requires a baccalaureate degree or a purchasing certification, and training.

Level II contracting officers:
   •   Generally delegated up to $1,000,000 of contracting authority.
   •   Requires 3 years of experience.
   •   Requires additional education and training above Level I.

Level III contracting officers:
   •   Generally delegated up to $10,000,000 of contracting authority.
   •   Requires 5 years of experience.
   •   Requires additional education and training above Level II.

   1735 N Lynn St
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
Contracting Authority                                                                              CA-MA-04-001



Level IV contracting officers:
    •   Delegated unlimited contracting authority.
    •   Must hold one of the following positions: (1) manager, headquarters Purchasing;
        (2) manager, National Mail Transportation Purchasing; (3) manager, Major Facilities
        Purchasing; (4) manager, Field Customer Support; and 5) manager, Materials.1

                           Objectives, Scope, and Methodology
Our objective was to determine whether adequate controls were in place over
contracting authority for the commitment of operational funds. To achieve these
objectives, we reviewed applicable criteria and interviewed each of five supply
management organization portfolio managers, and the Information Technology
Category Management Center manager. Additionally, we interviewed the category
management center managers and Facilities Service Office managers at Windsor,
Connecticut, and Greensboro, North Carolina.

Our review included an examination of contract actions for 70 judgmentally selected
high-dollar value contracts. We also, reviewed the qualifications and training for
16 contracting officers at the Windsor Category Management Center, Windsor
Purchasing Service Center, Windsor Facilities Service Office, Greensboro Category
Management Center, and Greensboro Facilities Service Office.

Of the 16 contracting officers in our sample, 13 were Level III, 1 was Level II, and
2 were Level I contracting officers. We compared Postal Service contracting officer
documented authority levels2 with degrees and certificates provided by contracting
officers. Finally, we compared these contracting officer authority levels to the dollar
value of contracts as shown in the Strategic National Automated Purchasing System
and Facilities Management System for Windows databases.

This review was conducted from February 2002 to November 2003 in accordance with
the President’s Council on Integrity and Efficiency, Quality Standards for Inspections.
We discussed our conclusions and observations with appropriate management officials
and included their comments, where applicable.

                                        Prior Audit Coverage

We did not identify any prior audits or reviews related to the objective of this review.




1
  According to Postal Service management, the next version of the Purchasing Manual will contain the updated
positions as a result of the transition to Supply Management from Purchasing.
2
  Internal list of contracting officers provided by the program manager, Training and Development, Supply
Management Infrastructure, Washington, D.C., in excel spreadsheet form on February 24, 2003.



                                                        2
Contracting Authority                                                                 CA-MA-04-001



                                                      Results
Controls over contracting authority for the commitment of operational funds for the
70 contracts reviewed were generally adequate. However, the 16 contracting officers
did not always meet qualification and continuing professional education requirements.
We found three Level III contracting officers had not completed their required courses;3
two had not completed Level I and Level II courses and all three had not completed the
Level III courses. Also, two of those three and one additional Level III contracting officer
had not completed the required annual 21 hours of continuing professional education in
contracting and purchasing.

The Postal Service Purchasing Manual requires managers to review annually whether
contracting officers have maintained professional proficiency and otherwise remain
qualified for their appointment levels. It also requires contracting officers to attend
21 hours of formal purchasing training covering such areas as new requirements,
techniques, or policies and procedures.4

This condition occurred because management officials did not always verify contracting
officer backgrounds in compliance with established criteria when granting contracting
authority levels to ensure they had the education and training necessary for their levels.
In addition, management did not annually ensure contracting officers qualified for their
current authority levels. As a result, Postal Service managers may be assuming higher
levels of risk than anticipated.

Recommendation

We recommend the vice president, Supply Management:

       1. Ensure the contracting officers identified in the report obtain the appropriate
          qualification and continuing professional education requirements for their
          appointment level.

Management’s Comments

Management agreed with the recommendation. Management stated that applicable
managers were aware of the contracting officer training issues and are working to
resolve them. An update will be provided by November 28, 2003. Management’s
comments, in their entirety, are included in the appendix to this report.




3
    As shown in the Purchasing Manual, Issue 2, Chapter 1, Section 1.4.4.b.3 (a-d).
4
    Purchasing Manual, Issue 2, Chapter 1, Section 1.4.6.



                                                            3
Contracting Authority                                                          CA-MA-04-001



Recommendation

We recommend the vice president, Supply Management:

    2. Direct portfolio managers to review all contracting officer authority to ensure
       appropriate qualification and continuing professional education requirements are
       met.

Management’s Comments

Management agreed with the recommendation. Management stated as part of the
annual individual development planning process, managers should always consider the
qualifications and continuing professional education requirements of contracting
officers, and beginning in fiscal year 2004, all managers within Supply Management
must follow this process. Management will also cascade the final management advisory
report through Supply Management’s Review for Excellence Program to all portfolio
managers for self-assessment and reinforcement of current policies by November 28,
2003.

Recommendation

We recommend the vice president, Supply Management:

    3. Enforce existing policy to review annually all contracting officer appointments to
       ensure they have maintained professional proficiency and remain qualified.

Management’s Comments

Management agreed with the recommendation. The annual update request from
Supply Management’s Training and Development team will include a reminder on the
importance of ensuring contracting officer qualification and continuing professional
education requirements are met. The request will be sent by December 31, 2003.

Evaluation of Management’s Comments

Management’s comments are responsive to recommendations 1, 2, and 3.
Management’s actions taken or planned should correct the issues identified in the
report.




                                             4
Contracting Authority                                                       CA-MA-04-001



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions, or need additional information, please contact Lorie K. Siewert, director,
Supply Management and Facilities, at (651) 855-5856 or me at (303) 925-7400.


/s/ Colleen A. McAntee

Colleen A. McAntee
Deputy Assistant Inspector General
 for Financial Management

cc: Richard J. Strasser, Jr.
    Susan M. Duchek




                                           5
Contracting Authority                                 CA-MA-04-001



                    APPENDIX. MANAGEMENT’S COMMENTS




                                   6
